                                                            Office ofInspector General

                                                            u.s. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                        SEP 2 7 2011

MEMORANDUM FOR:               Tony Russell
                              Regional Administrator, Region VI
                              Federal Emergency Management Agency

FROM:                         MattJadacki
                              Assistant
                                           4,£1  -./
                                        Inspecto~~
                              Office of Emergency Management Oversight

SUBJECT:                      FEMA Region VI Audit Follow-up and Resolution Activities
                              Audit Report Number DD-II-23

We reviewed audit follow-up and resolution activities performed by Federal Emergency
Management Agency (FEMA) Region VI (Region) and the Louisiana Recovery Office (LRO),
which reports to the Region. The purpose of this memorandum is to bring to your attention a
condition that requires your immediate attention regarding the Region's timeliness in
implementing audit recommendations. Our overall objective was to determine whether the
Region performed its audit follow-up and resolution activities effectively, as required by Office
of Management and Budget (OMB) Circular A-50, Audit Follow-up.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those
standards require that we plan and perform our audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based upon our
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based upon our objective. We conducted this audit according to
the statutes, regulations, and FEMA policies and guidelines in effect at the time of this
audit.

We reviewed follow-up correspondence between the Region (to include the LRO) and our
Central Regional Office regarding all open audit reports that office issued from July 2004
through September 2010, interviewed Region officials, and performed other procedures
considered necessary to accomplish our objective. Our audit cutoff date was March 31,
2011. We did not assess the adequacy of the Region's internal controls applicable to audit
follow-up activities because it was not necessary to accomplish our objective. We did,
however, gain an understanding of the Region's methods of conducting audit follow-up
activities and the resources needed to complete those activities in a timely manner.
                                       BACKGROUND


The Central Regional Office within the Office of Emergency Management Oversight (EMO),
Department of Homeland Security (DHS), Office of Inspector General (OIG), is responsible for
conducting audits of grants and subgrants awarded by FEMA Regions V, VI, and VII. The
Central Regional Office is also responsible for monitoring follow-up activities necessary to
resolve and close recommendations resulting from those audits. FEMA Region VI is responsible
for FEMA grant and subgrant activities in five states, as illustrated in figure 1. Therefore, the
Region is also responsible for working with us to resolve recommendations and implement
actions to close those recommendations in a timely manner.




                                    Figure 1. FEMA Regions I–X
                                             Source: FEMA.gov



                                    RESULTS OF AUDIT

The Region often did not perform its audit follow-up and resolution activities effectively, as
required by OMB Circular A-50. Further, the Region has not dedicated sufficient resources to
ensure compliance with OMB Circular A-50 or DHS Directive 077-01, Follow-up and
Resolution for Office of Inspector General Report Recommendations, dated October 7, 2010. As
a result, FEMA missed or delayed opportunities to improve the effectiveness and efficiency of
government operations and did not promptly recover more than $60 million in questioned costs
within a year after we issued our reports.




                                                2

Finding A: Compliance with OMB Circular and DHS Directive

The Region did not ensure the prompt resolution and implementation of audit recommendations
as required by OMB Circular A-50, which provides the policies and procedures for agencies to
use in addressing reports by the Inspectors General. The circular requires federal agencies to
establish systems to ensure the prompt and proper resolution and implementation of audit
recommendations and to assign a high priority to the audit recommendations and corrective
actions.1 Agency management officials are responsible for receiving and analyzing audit reports
and providing timely responses to the audit organization. The circular outlines 11 standards for
an agency’s resolution and corrective action system (see Exhibit A, Standards for Resolution of
and Corrective Actions for Audit Recommendations). In part, these standards—

        Require prompt resolution and corrective actions on audit recommendations. Resolution
        should occur within a maximum of 6 months after issuance of a final report.
        Provide a means to assure timely responses to audit reports and to resolve major
        disagreements between the audit organization and agency management or contracting
        officials. The process should provide sufficient time to permit resolution to take place
        within the 6-month limit.
        Assure that performance appraisals of appropriate officials reflect effectiveness in
        resolving and implementing audit recommendations.

DHS Directive 077-01 carries forward the requirements of OMB Circular A-50 and includes
additional timeframes for addressing audit reports and implementing corrective actions.
Specifically, DHS Directive 077-01 states the following:

        Component heads are responsible for ensuring that management decisions, resolution,
        implementation of agreed-upon corrective actions, and other closure actions on all OIG
        report findings and recommendations are properly vetted within the Component and, as
        necessary, within the Department, and transmitted to OIG within established timeframes
        set forth in the final report transmittal.2
        Unless otherwise stated in the report transmittal, Components respond to draft OIG
        reports of findings and recommendations within 30 days. Responses to draft reports
        include written comments indicating agreement or disagreement on reported findings and
        recommendations. Components respond to final OIG reports of findings and
        recommendations within 90 days of report issuance. Responses to final reports, with
        comments indicating agreement with final reports, include planned corrective actions
        and, where appropriate, dates for achieving actions and the official responsible for
        implementation of the corrective action. Comments indicating disagreement explain
        fully the reasons for disagreement, including any legal basis, as appropriate.
        OIG and personnel in other Components work cooperatively to reach resolution on
        findings and recommendations, including corrective actions and target implementation
        dates, within 6 months of final report issuance.


1
  OMB Circular A-50 defines corrective actions as measures taken to implement resolved audit findings and 

recommendations.

2
  DHS OIG EMO grant audit reports include response timeframes.



                                                        3

         Components generally implement corrective action on resolved findings and
         recommendations within 1 year of final report issuance or as agreed upon by the
         Component and OlG.

Our Central Regional Office issued 61 audit reports to the Region from July 2004 through
September 2010. As of March 31, 2011, 27 of the 61 reports remained open.3 The Region’s
audit follow-up and resolution activities for the 27 audit reports exceeded timeframes established
by OMB Circular A-50 and DHS Directive 077-01. Specifically FEMA did not—

1.	 Respond to 25 audit reports within the established timeframes set forth in the final report,
2.	 Reach resolution on 114 of 156 recommendations within a 6-month timeframe,4 or
3.	 Implement agreed-upon corrective actions in 95 of 156 recommendations within 1 year of
    final report issuance.5

As a result, FEMA missed or delayed opportunities to improve the effectiveness and efficiency
of government operations and has not promptly addressed more than $60 million in questioned
costs within a year after we issued our reports (see Exhibit B, Status of Open Audit Reports/
Recommendations). DHS Directive 077-01 reiterates the OIG’s requirement to report to
Congress and the public on component follow-up activity at least semiannually. Therefore, it is
imperative for the Region to ensure the prompt resolution and implementation of audit
recommendations.

Finding B: Resources Dedicated to Audit Follow-up and Resolution Activities

The Region did not have adequate resources to ensure compliance with OMB Circular A-50 or
DHS Directive 077-01. The Region designated two of its employees as audit liaisons: one at the
Region in Denton, Texas (regional liaison) and one at the LRO in New Orleans, Louisiana (LRO
liaison). The LRO liaison spends approximately 95% of her time on OIG-related activities,
while the regional liaison spends approximately 2% of his time on OIG-related activities.

In March 2010, you advised us that, by the end of April 2010, the Region’s Division Directors
were to develop a strategy for addressing overdue audit recommendations. Despite our efforts to
provide periodic reminders, as of March 31, 2011, 52 audit recommendations had past-due
response dates. According to assigned audit follow-up officials, since Hurricanes Katrina and
Rita occurred in 2005, the Region has been unable to provide prompt responses to our audit
reports and recommendations because of limited staff at the regional office, the prioritization of
other assignments, and operational demands on the Region’s disaster program staff responsible
for addressing audit recommendations. Additionally, one follow-up official mentioned that, due
to information technology upgrades, the Region no longer has access to a legacy audit tracking

3
  OIG reports remain open until all recommendations are closed.
4
  Audit resolution is the point at which the audit organization and agency management agree on actions to be taken
on reported findings and recommendations or, in the event of disagreement, the point at which the audit follow-up
official determines the matter to be resolved. According to DHS Directive 077-01, the Audit Follow-up and
Resolution Official is the DHS Under Secretary for Management.
5
  At the time of our audit, 14 of the 156 recommendations from the 27 audits were still within the 1-year corrective
action plan implementation period. Additionally, we did not count 7 recommendations that were outside the
Region’s control in meeting the 1-year corrective action timeframe.


                                                          4

system that it used to monitor audit follow-up activities. Finally, these Region follow-up
officials said that they do not routinely report the status of audit follow-up activities to their
senior management.

In summary, the Region did not perform its audit follow-up and resolution activities effectively,
as required by OMB Circular A-50. Unless the Region improves in prioritizing audit follow-up
activities, dedicating the necessary resources to audit follow-up, implementing effective audit
follow-up procedures and tracking systems, and routinely reporting the status of audit follow-up
activities to senior management, we are concerned that the Region will continue to be unable to
ensure the prompt and proper resolution and implementation of audit recommendations.


                                     RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

    Recommendation #1: Develop and implement a follow-up system that meets the
    requirements of OMB A-50 and DHS Directive 077-01 (finding A).

    Recommendation #2: Assign the necessary resources to ensure the proper resolution and
    implementation of audit recommendations within established timeframes (finding B).


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of our audit with FEMA officials and included their comments in this
report, as appropriate. We also provided written summaries of our findings and
recommendations in advance to these officials and discussed them at an exit conference held on
August 19, 2011. These officials agreed with our findings and recommendations.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website. Significant contributors to this report were Tonda Hadley,
Moises Dugan, Paige Hamrick, Chris Dodd, Judy Martinez, and Pat Epperly.




                                                   5

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.

cc:	   Administrator, FEMA
       Executive Director (Acting), FEMA Louisiana Recovery Office
       Audit Liaison, DHS
       Audit Liaison, FEMA (Job Code G-11-030)
       Audit Liaison, FEMA Region VI
       Audit Liaison, FEMA Louisiana Recovery Office




                                               6

                                                                                       EXHIBIT A

                       Office of Management and Budget Circular A-50

                                Standards for Resolution of and

                       Corrective Actions for Audit Recommendations



Agencies shall assign a high priority to the resolution of audit recommendations and to corrective
action. Systems for resolution and corrective action must meet the following standards:

1.	 Provide for appointment of a top-level audit follow-up official.

2.	 Require prompt resolution and corrective actions on audit recommendations. Resolution
    shall be made within a maximum of 6 months after issuance of a final report or, in the case of
    audits performed by non-federal auditors, 6 months after receipt of the report by the federal
    government. Corrective action should proceed as rapidly as possible.

3.	 Specify criteria for proper resolution and corrective action on audit recommendations,
    whether resolution is in favor of the auditor or an auditee. These criteria should provide for
    written plans for corrective action with specified action dates, where appropriate.

4.	 Maintain accurate records of the status of audit reports or recommendations through the
    entire process of resolution and corrective action. Such records shall include appropriate
    accounting and collection controls over amounts determined to be due to the government.

5.	 Provide a means to assure timely responses to audit reports and to resolve major
    disagreements between the audit organization and agency management or contracting
    officials. The process should provide sufficient time to permit resolution to take place within
    the 6-month limit.

6.	 Assure that resolution actions are consistent with law, regulation, and administration policy;
    and include written justification containing, when applicable, the legal basis for decisions not
    agreeing with the audit recommendation.

7.	 Provide for coordinating resolution and corrective action on recommendations involving
    more than one program, agency, or level of government.

8.	 Provide semi-annual reports to the agency head on the status of all unresolved audit reports
    over 6 months old, the reasons therefore, and a timetable for their resolution; the number of
    reports or recommendations resolved during the period; the amount of disallowed costs; and
    collections, offsets, write-offs, demands for payment and other monetary benefits resulting
    from audits. These reports should include an update on the status of previously reported
    unresolved audits.

9.	 Provide for periodic analysis of audit recommendations, resolution, and corrective action, to
    determine trends and system-wide problems, and to recommend solutions.

10. Assure that performance appraisals of appropriate officials reflect effectiveness in resolving
    and implementing audit recommendations.

                                                 7

                                                                                      EXHIBIT A

                      Office of Management and Budget Circular A-50

                               Standards for Resolution of and

                      Corrective Actions for Audit Recommendations


11. Provide for an evaluation of whether the audit follow-up system results in efficient, prompt,
    and proper resolution and corrective action on audit recommendations. The first evaluation
    will be made within 1 year of the date of this circular, and evaluations will be made
    periodically thereafter.




                                                8

                                                                                                      EXHIBIT B



                         Status of Open Audit Reports/Recommendations

                                        FEMA Region VI 

                                      As of March 31, 2011



                                                  Number of FEMA
                                                   Responses That
                                                    Exceeded the
                               Number of Open    Timeframe Stated in
                                Audit Reports        the Report

                                      27                   25




                                          Number of             Questioned Costs
                     Number of         Recommendations           Associated with
                  Recommendations       Exceeding the 1-        Recommendations        Number of
                   Exceeding the 6-       Year CAP               Exceeding the 1-   Recommendations
Total Number of   Month Resolution      Implementation             Year CAP          with Past-Due
Recommendations      Timeframe            Timeframe              Implementation      Response Dates
                                                                   Timeframe

      156               114                     95                $60.3 million           52
 Maximum Days
   Exceeding            2255                 2070                                        1946
  Timeframes




                                                 9

